CERTIFICATE OF SERVICE
I certify that, on this 6th day of February, 2020, I caused a copy of the foregoing
Application for Extension of Time to be served by first-class mail, postage pre-paid,
and by email on the following:
GARY C. ROBB
ANITA PORTE ROBB
ROBB & ROBB LLC
One Kansas City Place
1200 Main Street, Suite 3900
Kansas City, Missouri 64105
Telephone: (816) 474-8080
E-mail: gcr@robbrobb.com
E-mail: apr@robbrobb.com
Attorneys for Respondents Mary Riggs
as Personal Representative of the
Estate of Jonathan Neil Udall and
Philip and Marlene Udall

WILLIAM J. KATT
WILSON ELSER MOSKOWITZ EDELMAN &
DICKER, LLP
740 N. Plankinton Avenue, Suite 600
Milwaukee, Wisconsin 53203
Telephone: (414) 276-8816
E-mail: william.katt@wilsonelser.com
PATRICK J. KEARNS
WILSON ELSER MOSKOWITZ EDELMAN &
DICKER, LLP
401 West A Street
Suite 1900
San Diego, California 92101
Telephone: (619) 321-6200
E-mail: patrick.kearns@wilsonelser.com
Attorneys for Respondents Matthew
Hecker, Daniel Friedman, Brenda
Halvorson, Geoffrey Edlund, Elling B.
Halvorson, John Becker, Elling Kent
Halvorson, Lon A. Halvorson, Papillon
Airways, Inc., d/b/a Papillon Grand
Canyon Helicopters, Xebec LLC, and
Scott Booth

/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

